CERTIFICATE OF COMPLIANCE
Nos. 19-1257 & 19-1258
Mark Brnovich, Attorney General of Arizona v. Democratic National
Committee; Arizona Republican Party v. Democratic National Committee
As required by Supreme Court Rule 33.1(h), I certify that the brief for
amici curiae Senator Ted Cruz and Ten Other Members of the United States
Senate contains 7,747 words, excluding the parts of the brief that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on December 7, 2020
/s/ Stephen M. Duvernay
Stephen M. Duvernay
Counsel for Amici Curiae

